No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
JEFFERSON LEVINE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I certify that on this 8th day of March, 2021, in accordance with SUP. CT. R. 29,
one copy of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served electronically with the Clerk of the Court using CM/ECF, and
filed by third party commercial carrier for delivery upon the Solicitor General of the
United States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,
Washington, D.C. 20530-0001.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
March 8, 2021

By:

_s/ Brenda G. Bryn
__________
Brenda G. Bryn
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842

